<html>
<title> - [H.A.S.C. No. 115-58] The Army's Tactical Network Modernization Strategy</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                  
                         [H.A.S.C. No. 115-58]

           THE ARMY'S TACTICAL NETWORK MODERNIZATION STRATEGY

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 27, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-561                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------


                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     JIMMY PANETTA, California
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Crawford, LTG Bruce T., USA, Army Deputy Chief of Staff, G-6; MG 
  James J. Mingus, USA, Director, Mission Command Center of 
  Excellence, United States Army Combined Arms Center; and Gary 
  Martin, Program Executive Officer for Command, Control and 
  Communications-Tactical, Department of the Army................     4

                                APPENDIX

Prepared Statements:

    Crawford, LTG Bruce T., joint with MG James J. Mingus and 
      Gary Martin................................................    39
    Turner, Hon. Michael R.......................................    37

Documents Submitted for the Record:

    Statement for the Record from Hon. Joseph P. Kennedy, III, a 
      Representative from Massachusetts..........................    55

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    63
    Mr. Gallego..................................................    63
    Ms. Tsongas..................................................    62
    Mr. Turner...................................................    59
           
           
           THE ARMY'S TACTICAL NETWORK MODERNIZATION STRATEGY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                     Washington, DC, Wednesday, September 27, 2017.
    The subcommittee met, pursuant to call, at 2:31 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. Please take a seat. We will call the hearing to 
order.
    The subcommittee meets today to review the Army's tactical 
network modernization strategy. I would like to welcome our 
witnesses representing the Army: Lieutenant General Bruce 
Crawford, Army Deputy Chief of Staff and Chief Information 
Officer; Major General James Mingus, Director, Mission Command, 
Center of Excellence, United States Army Combined Arms Center; 
Mr. Gary Martin, Program Executive Officer for Command, Control 
and Communications-Tactical.
    We thank you all for your service and we welcome you to our 
hearing today.
    We are holding this hearing today because the Army is 
proposing a major shift in its tactical network modernization 
strategy. To begin funding the strategy, the Army has indicated 
that they would like to realign for fiscal year [FY] 2018 over 
$554 million, which would be a major change from their fiscal 
2018 budget, which we had received just months ago, as well as 
the House-passed National Defense Authorization Act [NDAA], 
which was passed just months ago, including the request from 
the Army.
    From an oversight perspective, we have been doing this--we 
have been down this road before with the tactical network. 
Since 2008, the Army has restructured its network strategy 
several times, to date without successful implementation. I 
remember in 2014 when the Army began a new modernization effort 
for the tactical network to improve communications, called the 
Simplified Tactical Army Network, or STARNet, and identified 
the network as its number one [modernization] priority.
    Over $6 billion has been spent on the Warfighter 
Information Tactical Network, WIN-T, as well as many billions 
more on tactical radios and mission command network systems to 
simplify and improve the network. For at least 5 years, the 
Army has come before this committee and defended the need and 
resources for your current network strategies and Congress has 
supported those requests based upon the Army's stated needs, 
goals, and objectives.
    Just 5 months ago, you requested over $400 million in 
fiscal year 2018 for the WIN-T program and indicated that WIN-T 
Increment [Inc.] 2 was the foundation of its network 
modernization strategy and mobile mission command. Now, you are 
asking us to realign almost half-a-billion dollars from 
existing programs with limited details as to your long-term 
plan for the network.
    Given the Army's previous track record with the network, I 
am skeptical on whether this proposed new strategy will work as 
intended. And we--I am concerned that we are going to be back 3 
years from now discussing another approach and yet still not 
have full implementation by the Army for what the Army has 
purchased and we have paid for.
    I understand the change in strategy appears to be driven by 
two reviews, one internal by the Army and one by the Institute 
of Defense Analyses [IDA], which had been requested by 
Congress. I understand the change in strategy appears to be 
driven by--excuse me--and that these reviews identified 
significant operational shortfalls in existing tactical network 
modernization programs and requirements, given current and 
emerging threats.
    However, before we agree to anything, we better understand 
what it is that you plan long term for your tactical network. I 
think we can all agree that our first priority remains the 
warfighter. If we are going to send soldiers into harm's way, 
their communication devices should never say ``service not 
available.'' So clearly, we want to be sure that we are 
fielding capability that works and equipment that the soldiers 
will use, with an understanding also of what information that 
they need to have available.
    So just to reiterate two basic questions, which is the 
primary purpose of this hearing. Help us understand why what 
you are proposing is the right strategy this time, and why it 
is necessary to realign fiscal year 2018 funds after three of 
the four defense committees have already been on and off the 
floor, as opposed to waiting for the FY 2019 budget process.
    Before I begin, I would like to turn to my good friend and 
colleague from Massachusetts, Niki Tsongas, for her comments.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 37.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman. And good afternoon to 
our guests, and welcome.
    Recently, senior Army leaders reached out to numerous 
Members of Congress to notify us of some major changes they are 
recommending to the Army's tactical network programs. And I 
thank you for that. I understand that these proposed changes 
are based in part on the Army's view that it needs to take 
better advantage of telecommunications developments in the 
private sector and more agilely respond to rapidly changing 
peer threats, in particular from Russia and China.
    Our witnesses here today have outlined in their prepared 
testimony recommendations for significant internal process and 
organizational changes. The proposed changes also include a 
request for realignment of close to half-a-billion dollars in 
Army research and procurement funds for fiscal year 2018, as 
well as realignment of billions more in future years.
    The Army can, with existing authorities, reorganize itself 
to better develop requirements and programs to acquire 
equipment to meet those requirements. I would point out that 
this is not a new problem, and that internal Army management of 
what it calls, quote ``the network'' unquote, has been 
challenged for many years by an overly complex and segregated 
set of organizations involved in the process. If the internal 
Army organizational changes make things work better, I could 
support them.
    I also support, broadly speaking, the Army adjusting its 
plan to adapt to changes in technology and threats. However, 
based on the limited information provided by the Army to 
Congress thus far on the details of the funding changes for 
fiscal year 2018, I have serious reservations about the 
funding-related elements of the Army's new plan.
    First, I am concerned from a high-level perspective that 
the Army is asking Congress to, in effect, quote ``drive in the 
dark'' unquote, as it moves forward. The Army is asking 
Congress to take funding away from programs that in most cases 
have been fully developed over many years, tested thoroughly, 
and are now in production. The Army is asking to instead use 
those funds for a whole series of initiatives that are not well 
defined and in some cases don't even exist yet.
    In short, the Army is asking us to take a significant risk 
in canceling several major programs; ones, by the way, that the 
Army has advocated in favor of for many years, in the hope that 
an ill-defined set of new efforts will work as planned, be on 
time, and stay on budget.
    Second, I have questions about what little specifics have 
come over from the Army, particularly with regard to the WIN-T 
program. For example, the Army's proposal would cut close to 
$144 million in test, support, and management services for the 
network. But these programs and services will be needed 
regardless of the direction the Army plans to take with regard 
to a new network strategy. As a result, I am concerned that 
these planned cuts will jeopardize the Army's ability to 
swiftly and successfully upgrade its network.
    Additionally, the Army claims that it still intends to 
upgrade its existing WIN-T Increment 1 equipment and buy 
significant amounts of WIN-T Increment 2 equipment for some 
units. However, it is not at all clear how the proposed funding 
realignment will support that plan in a way that is actually 
executable.
    In summary, at this point the Army's proposed funding 
adjustment looks somewhat half-baked and not fully thought 
through. Before Congress agrees to move around half-a-billion 
dollars in funding, we need an official budget amendment 
proposal from the administration. That proposal should include 
full supporting documentation so we can be sure there are no 
unintended consequences to shifting around such large sums at 
the last minute. I look forward to hearing more during today's 
hearing about the Army's new plans, and I yield back.
    Mr. Turner. Thank you.
    I ask unanimous consent that non-subcommittee members be 
allowed to participate in today's briefing, after all 
subcommittee members have had an opportunity to ask questions. 
Is there any objection?
    Without objection, non-members will be recognized at the 
appropriate time.
    I also ask unanimous consent to include into the record all 
member statements and extraneous material. We have a statement 
to be offered on behalf of Representative Joe Kennedy.
    [The information referred to can be found in the Appendix 
on page 55.]
    Mr. Turner. If there is no objection, so ordered.
    I just want to note, I hope that, in the future, that Mr. 
Kennedy will vote for the NDAA, because that will probably have 
the greatest support for the program.
    General Crawford--I understand he will be giving the 
opening remarks for the Army. General Crawford, this is not the 
kind of hearing that we like to have. This is where this 
committee was told, with full support of the Army, in May, 4 
months ago, of the critical need for this program, and now you 
are before us in September, and I can't believe that the 
information that you are going to be providing us is 
information that wasn't known or knowable.
    So we have been operating under the information that this 
program was critical, and you are going to meet a skeptical 
subcommittee and, I think, some difficult questions today. We 
look forward to your comments.

 STATEMENT OF LTG BRUCE T. CRAWFORD, USA, ARMY DEPUTY CHIEF OF 
STAFF, G-6; MG JAMES J. MINGUS, USA, DIRECTOR, MISSION COMMAND 
CENTER OF EXCELLENCE, UNITED STATES ARMY COMBINED ARMS CENTER; 
AND GARY MARTIN, PROGRAM EXECUTIVE OFFICER FOR COMMAND, CONTROL 
      AND COMMUNICATIONS-TACTICAL, DEPARTMENT OF THE ARMY

    General Crawford. Well, Mr. Chairman, Ranking Member, 
distinguished members of this committee, first and foremost, I 
would like to say thank you for allowing us the opportunity to 
come before you. Before we begin and move on with our actual 
testimony, I would like to take the opportunity to have the 
fellow members--panel members introduce themselves, and I will 
just start with me and talk very briefly--a little bit about 
what I do.
    So, as the chief information officer, I am really 
responsible for three things for the Army. One is strategy, the 
other is driving the policy, and the other actually has to do 
with the resourcing in my role--the adviser to the Secretary of 
the Army and to the Chief of Staff of the Army.
    That said, I will turn it over to General Mingus.
    General Mingus. Mr. Chairman, Ranking Member, distinguished 
members, thank you for the opportunity, also, to appear today 
to help tell the story of where we are going with our network 
path.
    I am here representing Training and Doctrine Command in the 
operational force, and as such, the requirements side of this 
equation. I very much look forward to your questions. Thank 
you.
    Mr. Martin. Mr. Chairman, Ranking Member, distinguished 
members of the committee, my name is Gary Martin. I am here 
representing the acquisition community. I am the Program 
Executive Officer for Command, Control and Communications-
Tactical. I acquire much of the tactical communications 
equipment for the Army.
    General Crawford. So, Mr. Chairman, Ranking Member, 
distinguished members of this committee, we come before you on 
behalf of our soldiers and the trusted professionals of the 
Department of the Army civilian workforce to speak about the 
current state of our Army's network and to communicate a path 
forward.
    It has been articulated in previous testimony by Army 
leadership that readiness is the Army's number one priority. 
Well, today, we would like to further state that the network is 
also a critical enabler to total Army readiness.
    After almost a year of careful review, informed by both 
internal and external evaluations, and most importantly, 
feedback from well-informed operational commanders in the 
field, we have come to the conclusion that the network we have 
is not the network that we need to fight and win against a peer 
threat in a congested or contested environment.
    The Army network as a whole is what we need to bring with 
us to communicate when we deploy. This includes people, it 
includes processes, and it includes technology that make it 
work. Our current network does not meet our warfighting needs 
now, nor do we believe it will meet the future warfighting 
needs of a high-intensity conflict.
    Our forces must be able to fight, shoot, move, reliably 
communicate, protect, and sustain anywhere, anytime, across all 
domains and in any environment. The Army is committed to 
delivering a survivable, secure, mobile, and expeditionary 
network that provides situational awareness and joint 
interoperability to enable warfighters to fight and enable them 
to win.
    The network also enables the Army to project forces and 
power from our bases, posts, camps, and stations to the most 
remote locations around the world. The current network was 
developed and fielded for the static environments of Iraq and 
Afghanistan in the mid- to late-2000s, but does not meet the 
warfighting needs of a high-end conflict against peer 
adversaries.
    As we pivot to a new strategy, we look forward to more, not 
less, collaboration with our industry partners in delivering 
the network of the future. We owe a debt of gratitude--and I 
will say this upfront--we owe a debt of gratitude to our 
commercial and defense industry partners for stepping forward 
over the past decade to help address many of the capability 
gaps and shortfalls resulting in the current network that we 
have.
    However, we now find ourselves in a new environment, facing 
new challenges and emerging threats that reflect the changing 
character of warfare our Chief of Staff of the Army, General 
Mark Milley, describes in an article about the future of 
warfighting.
    To quote General Milley, ``We have new insights into the 
character of future conflict, and we have had glimpses of what 
our Army and its soldiers must be ready to do in the coming 
decade. Shifts in the character of war offer an opportunity. If 
we can anticipate or at least recognize them, we can adopt 
proactively, maintaining or regaining overmatch, and forcing 
competitors to react to us.''
    The network we have currently fielded in our formation is 
neither simple nor intuitive, and one that demands a heavy 
reliance on industry-provided field service representatives 
that make the system work.
    In addition to emerging threats that I have spoken of, we 
have also seen a commercial innovation explosion and 
exponential growth in technological advances that accelerated 
at a rate at which our standard acquisition processes could not 
keep pace. Neither current nor future adversaries are inhibited 
by the same processes, allowing them to better exploit new 
technology to their advantage.
    Your Army must win the fight we are in, be ready to fight 
tonight against any adversary, and posture ourselves for the 
future fight. To improve our ability to counter evolving 
threats, we must adapt. Over the past year, our Chief of Staff 
General Mark Milley has led an assessment of the Army's entire 
network in parallel with the external study on the Army's 
tactical network directed by Congress in the National Defense 
Authorization Act of 2016.
    The findings of both were corroborated by feedback from 
Department of Defense [DOD] testing agencies, combat training 
center rotations, joint exercises, and most importantly from 
operational commanders. These findings documented significant 
shortfalls in governance, requirements, acquisition, and 
innovation negatively affecting the Army's ability to provide 
warfighters with simple, intuitive, resilient, and protected 
network-enabled capabilities. Our new path forward will focus 
on four priorities: survivability and mobility of our command 
posts, tactical network transport resiliency, a unified suite 
of mission command assistance, and interoperability.
    In order to address the two strategic problems we face, 
which are the requirement to be able to fight tonight, and the 
need to best posture our Army to win the future fight. In the 
written statement we said that ``the Army will.'' What we 
intended to say was that the Army intends and has intent to 
halt programs that do not remedy operational shortfalls, fix 
programs required to fight tonight, and pivot to a new 
acquisition strategy of adapt and buy that allows for rapid 
insertion of new technologies and capabilities that allows the 
Army to best leverage the innovation and the investments of our 
commercial industry partners while remaining good stewards of 
taxpayer dollars.
    This involved changes to Army culture, structure, and 
processes to address shortfalls. We will leverage proven joint 
solutions in commercial sector innovation, redefining the way 
the Army delivers the tactical network.
    Our network must enable mission command, not encumber it. 
It must also ensure our leaders and soldiers, like my son, who 
is currently forward-stationed, along with over 180,000 other 
soldiers in over 140 different countries, in support of 
combatant command requirements. It ensures that they can out-
think and out-decide any future adversary.
    We must posture our Army to rapidly maximize operational 
results, align resources, capitalize on technological advances 
and influence, shape, and leverage the innovation of the 
commercial industry. This new path we believe helps us do 
exactly that.
    Mr. Chairman, Ranking Member, distinguished members of the 
committee, we thank you and look forward to your questions.
    [The joint prepared statement of General Crawford, General 
Mingus, and Mr. Martin can be found in the Appendix on page 
39.]
    Mr. Turner. Thank you, General.
    General, if you were not a general, if you were a 
professor, and you had to give a letter grade to the Army's 
performance in this program, what letter grade would you 
assign?
    General Crawford. Sir, the best grade that I would give, 
given where we are, I would give the Army a C, looking at the 
overall performance. But I would like to add on to that 
question, if I may.
    There have been several strategic shifts. And I make no 
excuses, sir, in answering this question. If we start back in 
2008, and we look at what we were doing during that time, we 
actually had the surge that happened in Iraq, in parts of 
Afghanistan, so in that part of the world that was ongoing, so 
we had to make some strategic shifts there. And again, sir, I 
make no excuses.
    Later on in the 2011 and 2014 timeframe, we actually had to 
shift the focus of where we were spending money on the network 
and literally purchase pretty much every capability that we 
can, which kind of led to where we are right now, and how we 
went about buying that, and get it in the hands of soldiers, 
given the capability that they had at the time.
    Our focus--and I know this because having been the director 
of cyber in Europe during the timeframe--so from about the 2013 
timeframe to about now, our strategic focus in terms of the 
network--and I am not saying it was right, I am just telling 
you what we did--our strategic focus at the time, sir, actually 
was focused on infrastructure. And it was focused on the 
evolution of threats in cyberspace.
    And so to your question, sir, I would give us a C in terms 
of how we organize ourselves for this; the fact that we didn't 
have an overarching governance structure in place to drive. And 
at the time, we didn't have one single integrator in charge of 
the overall network. And those are things that we are trying to 
fix with the new strategy, sir. Thank you.
    Mr. Turner. Thanks a lot. I hope you understand our 
skepticism when even you would give yourself a C. And I think 
many of us would give you a lower grade overall in what has 
been accomplished here.
    Now, you gave us 2008 and what you were responding to 
there. You told us about your strategy in 2013. But as I was 
explaining to you before, I am really concerned about 2017, 
which is why I am not happy about having a hearing like this, 
because we are not the accounting department. We are not 
clerks. We don't just wait for the Army to come and give us 
their new paperwork to shift over a program.
    We are a committee that provides oversight. And we are 
supposed to actually be the partner with the Army in ensuring 
that taxpayer dollars are applied appropriately and that the 
warfighter gets what they need and deserve.
    Now, you said that your request before us for the--that is 
coming, I guess--is because of your focus on the warfighter and 
because of your concerns for taxpayers' dollars. Was it not 
your concern in May when you requested this from us? Were you 
not concerned about the warfighter and the taxpayers' dollars 
in May? Because we were.
    General Crawford. Sir, although this study and this 
assessment has been ongoing for almost a year, one of the 
things that drove our thinking on this is we have been 
receiving different feedback from commanders in the field and 
different organizations about our entire network, the actual 
ecosystem that makes up our network. But we actually just 
received the actual detailed study on IDA in about the March 
timeframe.
    So you have got a couple of options. You know, I understand 
that IDA was only--the IDA study was only one variable in the 
equation because we have been collecting data.
    Mr. Turner. I have read the study, but, General, you were 
participating. I mean, it is not as if the information that 
they just went out into a field somewhere and divined it 
themselves. I mean, it was a collaborative process that 
participated with your information and your knowledge, also. So 
it is not as if when the report hit that it was just suddenly 
new knowledge to the Army, correct?
    General Crawford. Sir, there were different parts of the 
Army that was actually participating in the study. But it 
wasn't until the late March, early April timeframe that we got 
a comprehensive look at the overall study, to be able to divide 
the 12 different functional areas and 4 different capability 
areas that they outlined, and to measure ourselves against 
them.
    And to be quite honest with you, sir, the initial briefings 
that we received, actually some of the things actually caught 
us off-guard because what IDA did is they actually did a deep 
dive into the different functions that we use to actually run 
the network.
    What we had been looking at, sir, although information was 
coming from commanders, we had a series of symptoms that we 
were trying to piece together, things like the idea of 
complexity as we started to get our minds around that. So we 
had been studying the threat. We had been going to school on 
the threat since about the 2013--in detail. And some of the new 
evolutionary capabilities that the threats are developing since 
about the 2013, 2014 timeframe.
    But what the IDA study did for us, sir, is it forced us to 
see ourselves. And to be quite honest with you, I don't believe 
that we saw ourselves well in terms of really understanding the 
feedback that we were getting from the National Training 
Centers, what operational commanders were giving us in terms of 
trying to--problems that they were seeing. And so we started to 
try and--okay, so let's train our way through this. Let's 
increase training to try and solve some of these problems.
    What the IDA study gave us, sir, is a little bit more depth 
in terms of, listen--and we actually later got this feedback 
from operational commanders: You cannot train your way out of 
the current state that you are in; increasing the number of 
hours that you are training on the system is not going to get 
you to a better state. You have some fundamental process 
issues; you have some fundamental threat issues that you need 
to address, sir.
    Mr. Turner. General, you said that there have been 
commercial advances, and we certainly are all very aware of 
that, and we are aware of the fact that there has been a huge 
delta between what service members coming into the military are 
familiar with on the use of technology and then what you are 
handing them. You indicated that your acquisition processes 
have been a problem in your ability to pull forward commercial 
advances.
    The request that you are going to be placing forward is a 
funding request. How are the acquisition processes changing so 
that you can solve that problem that you identified?
    General Crawford. Sir, a couple of things that we are doing 
I mentioned--I alluded to one of them earlier, so I would like 
to further articulate. We had to fundamentally change, so there 
is the acquisition piece of it. We had to fundamentally change 
how we were organized and how were dealing with the problem.
    I mentioned one thing, sir. Imagine that we had a process, 
and you had no single integrator of all of the different 
mission areas of the network. That is the warfighting mission 
area. That is the business mission area. That is the 
intelligence mission area, and the enterprise mission area that 
make up the network.
    We did not have up until General Milley and then 
Secretary--or Acting Secretary of the Army directed it. We 
didn't have one single integrator, and that was a 
recommendation that came out of the IDA study, to take charge 
of this overall process.
    The other piece was, sir, we didn't have one set of 
individuals at the top of a governance structure that we are 
implementing right now, because we had to make sure we got that 
right. But one of the documents that was written and directed--
that was written about a month and a half ago was that the 
Under Secretary of the Army and the Vice Chief of Staff of the 
Army now be in charge of a horizontally integrated--not just 
the vertical integration that we had before--but a horizontally 
integrated governance structure that is going to oversee all 
strategy, all policy, and all resources for all things network.
    And so I believe Mr. Martin may have a couple of comments 
that he wants to make, sir, but in terms of actions that we 
have taken in the near term to fix ourselves from a structure 
perspective, again, this isn't something we can just train our 
way through, because that would have increased risks in our 
formations. We had some fundamental change. Hence my mentioning 
of culture that needed to change inside of our formations and 
some physical change.
    And so those are just two of the things that we have 
recently changed. And I believe Mr. Martin from the acquisition 
community may have a couple comments, sir.
    Mr. Martin. Mr. Chairman, a couple of points. One, I think 
we have learned, particularly over the last 4 or 5 years, that 
buying a one-size-fits-all capability for all of the formations 
complicates part of our problem.
    One of the challenges we have today is many of the 
networking components that we are procuring and acquiring don't 
fit in our heavy formations, our combat platforms. Many of 
those are delayed until the 2020 and beyond timeframe, and much 
of that is the complexity of integrating these pieces into 
those formations.
    We believe that some of the things that Congress has done, 
particularly in the NDAA for 2016, will facilitate specifically 
in this space, in the IT [information technology] space where 
things move rather quickly, a couple things that will be 
beneficial to the way we do business, one of which is section 
804 in rapid prototyping and fielding. Clearly, in this area, 
you have to be able to prototype it, often focused, and field 
it much more quickly than the process that we use today.
    Other transaction agreements are also a contractual 
mechanism by which we can get access to innovative technology 
in commercial marketplace much more quickly than we do today, 
and certainly section 851 that offers some accelerated means 
for getting commercial products out to the field.
    So we believe Congress has given us some tools that we can 
take advantage of going forward, and we look forward to 
applying those to what we are trying to do, sir.
    Mr. Turner. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you all.
    Obviously, a lot of questions that we have up here. You 
have identified a lot of problems. Many of those problems are 
not new problems, but I think you have yet to demonstrate or 
completely articulate a way forward that gives us the 
confidence that you will be able to solve these issues, 
especially given the funding constraints that you have asked us 
to--and the funding changes you have asked us for.
    As you rightly point out in your statement, in your joint 
statement, the pace of telecommunications innovation in the 
commercial world has outpaced the services' ability to test, 
acquire, and field the latest technology. So as you are dealing 
with this, how is the service looking to leverage available 
technologies and capabilities?
    We know the rapid pace of change. But what you have to deal 
with is making sure that there is a level of security and 
integrity, that maybe is not the case in the commercial world. 
So how are you looking at this, so that you are able to be 
assured that whatever you take advantage of it will be secure 
and maintain its integrity?
    General Crawford. So, ma'am, to the first part in how are 
we taking advantage of technology, so one of the things that we 
have learned is, we need to be able to not only leverage 
industries' technology, but we need to posture ourselves to be 
able to leverage industries' ideas and their best practices.
    And so after the IDA study and we got the results, one of 
the things that we have taken on is we have asked IDA to pull 
in--and we have had four of these sessions, with industry 
partners who are traditional, but we also had sessions with 
industry partners who were non-traditional, who don't 
traditionally deal with the government.
    And so, what did we walk away from with? In order to 
improve, to get beyond the requirement, because this process--
this very rigid process is essentially we write the 
requirement, we patch it to industry. There is a lot that 
happens in there. But what we are trying to get to when I 
mention the idea, this idea of putting operators and developers 
together--this dev ops [development operations] concept, so 
that our industry partners can get beyond just the written, 
rigid, in some cases overprescribed requirements, that we have 
been giving them in the past.
    So when you think about what we are going to do 
differently, we are going to put operators and developers 
formally together so that our industry partners are not only 
looking at a very rigid requirement, but what they are really 
able to do is understand how the user interfaces with their 
product.
    And so, over the years that--since I have been a general 
officer and speaking to industry, that has been one of the 
things that they have been asking for. They have been asking 
us, if you want to leverage our technological investments, the 
investments that we are making from a research and development 
perspective, you all need to figure out how you are going to 
give us more access to operators so that we can study how the 
operator actually interfaces with our equipment.
    The second piece of that, ma'am, in terms of ideas and how 
we are--want to better--or we are going to posture ourself to 
better leverage technology actually has to do with this idea of 
cross-functional teams, where you will have not only the 
operators and the developers working together, but you are 
going to have industry to be a part of that team to try and 
inform as we look at some of the challenges that we have.
    We mentioned satellite, overreliance on satellite and some 
of the anti-jam problems that we have. Ma'am, if we could have 
fixed these on our own, we probably would have done it by now.
    And so by bringing together these cross-functional teams of 
industry partners, both traditional and non-traditional, 
because there are a lot of very innovative things that we are 
seeing out there in commercial industry that we want to bring 
them to the table to help inform us. So this is not something--
and I mentioned in my opening remarks--that we look to increase 
collaboration with industry, not decrease that.
    And so the cross-functional teams and the dev ops concepts 
are where we are looking to integrate as a part of this new 
modernization approach that we intend to take on. And these are 
lessons learned from industry. And I believe General Mingus may 
have a couple of thoughts.
    Ms. Tsongas. And how do you overlay the security piece? 
Because that is an additional requirement that is unique to the 
military.
    General Crawford. Yes, ma'am. So the primary security--a 
couple of security challenges that we have got and how that is 
going to be overlaid has do with this idea of Type 1 encryption 
versus commercial standard encryption. And so, although we know 
that we are tied to Type 1 encryption because of some of the 
satellite capabilities and we--you know, it comes with our 
package, what we are looking to do is leverage, so there are 
many commercial standard encryption capabilities that are out 
there.
    So our thinking on leveraging industry's ideas and 
technology goes beyond just the capability we provide. But in 
terms of some of the encryption standards that they have got up 
to 256K vice the 128 that we use for Type 1 encryption, those 
are capabilities that we are looking to integrate, ma'am, as a 
part of the way we do business going forward. And again, some 
very innovative solutions that are out there.
    It is not just about the technology. It is both the ideas, 
but back to the technology point, we have already seen--as a 
matter of fact, last night, the 82nd Airborne--a portion of the 
82nd Airborne actually jumped in a capability that we became 
aware of over the last 3 or 4 months, that has to do with 
security. And we got that idea from industry, ma'am.
    Ms. Tsongas. And how will you use the innovation 
incubators, like the DIUx [Defense Innovation Unit-
Experimental] that exists both out in California and 
Massachusetts? How will you look to innovation incubators like 
that to help you deal with some of these emerging problems or 
newly identified issues in the context of rapid change?
    General Crawford. Yes, ma'am. So to the point of talking to 
people that we don't normally talk to, the structure of these 
cross-functional teams, our intent is to bring in those who are 
innovating at a rate which is a lot faster than we are. In 
addition to the DIUxs of the world and the DDSs [Defense 
Digital Service] which are a--the subcomponent of them, we are 
also looking to leverage the agencies.
    So there are other three-letter agencies that have some of 
the very same problem sets at the enterprise level that we face 
on a daily basis. And so, just recently, we were in a 
conversation with an industry partner and several of the three-
letter agencies about cloud computing and looking for 
alternative solutions to the way we are doing business, which 
will save the taxpayers' dollars and eventually make us more 
secure.
    Ms. Tsongas. Thank you, General. I yield back.
    Mr. Turner. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General, it is clear that faster fielding of modernized 
capabilities is necessary to keep pace with current threats. 
Despite the Army's intention to prioritize network 
modernization, programs have continued to be delayed or 
canceled, as we are hearing about.
    Your proposed significant shifts in the FY 2018 funding, 
and did so, as the chairman so eloquently pointed out, 5 months 
after you submitted and defended your budget request, and 1 
month after three of the defense committees had marked up their 
versions of the 2018 request. With that in mind, would it not 
be prudent to continue buying new, lighter versions of the WIN-
T Increment 2 until you know what the new programs are?
    General Crawford. Sir, the feedback that we have gotten on 
the program had, you know, given us some concern. I mentioned 
earlier where, what the origin of this feedback is. And so we 
have got two fundamental problems that we are trying to solve, 
sir.
    If we were trying to do any one of these alone, this 
wouldn't be an easy problem, but it would be an easier problem. 
So, we have a fight tonight responsibility and a fight tonight 
requirement. Some of the feedback that we have gotten, some 
significant challenges with line-of-sight, some significant 
challenges with security of the satellite capability that 
exists as a part of WIN-T.
    And so as we look at the WIN-T system, and we look at the 
two problems we have, a fight tonight, and so that we are not 
before you in another 2 or 3 years with the same--a different 
version of the same story, we have got to pivot to a new way of 
doing business.
    Again, any one of these two problems, sir, would be easier 
to try and solve. And so as you look at the WIN-T system, the 
first thing that I will tell you, sir is the WIN-T system is an 
overall--it is a part of the overall ecosystem. It is not the 
network in its entirety. It is the transport capability.
    And so what you see, you will see it in--you saw it in 
2017, and you will see it in 2018. We believe that there are 
some purposed capabilities, as WIN-T has five different 
components as a system. There are two or three of those 
components that we believe, back to the party one, and fight 
tonight, while we pivot to an objective system, which WIN-T we 
don't believe is because of the things that I outlined earlier. 
We believe that there are some purposed capabilities that exist 
in WIN-T that we could use to support our fight tonight 
requirement.
    And so to your question, sir, of why not until there is 
something else--essentially what we are doing is we are buying 
lighter versions of WIN-T, things that were tested out at the 
NIE [Network Integration Evaluation] recently. We are buying 
lighter versions, but understanding that that is not our 
objective system, based on the attributes and characteristics 
that we have aligned, we are looking to fix our fight tonight 
with those purposed capabilities, sir.
    Mr. LoBiondo. But do we really know what we are pivoting 
to?
    General Crawford. Sir, so one of the things that we have 
been accused of, and rightfully so--it led to the C grade that 
we talked about--is industry has given us feedback so you are 
overprescribing. So you are telling me exactly--it has got to 
fly at 30,000 feet, it has got to be able to operate at the 
depths of a submarine, so to speak. You are overprescribing 
your requirements.
    What about Army? Describe what it is, and then let us, back 
to this dev ops and cross-functional teams kinds of concept, if 
we know that we have got some significant security 
considerations, then why should we stay with the program out 
until 2026 knowing that we have got those significant problems? 
Let us invest in trying to fix our fight tonight capability, 
while we pivot to be ready for the something different.
    By doing what--repeating what we have done in the past, 
sir, and we have been listening to the industry about 
overprescribing requirements--and so our intent is--and it is 
only our intent at this point--is to halt the program.
    As I mentioned, we had taken the opportunity to describe, 
in painstaking detail for us. And it was an awakening for us as 
we described the attributes and characteristics of this future 
state. But in 2018, halt procurement of WIN-T Increment 2, and 
then through FY 2021, sir, field that which we have already 
purchased to enable our fight tonight capability.
    Mr. LoBiondo. Well, I have got big question marks. But let 
me yield to the chairman.
    Mr. Turner. Sorry to jump in here, but, General, he asked 
you a very pointed question--what are you pivoting to? And what 
you described was a process, not a destination, not a system, 
not a procurement program. So, and with all due respect, I 
believe that the answer is, you don't know, right?
    General Crawford. Sir, the answer is we do not have an 
objective system. If there were an objective system on the 
shelf, sir, we would be trying to go and purchase that 
objective system.
    What we are trying to do now is to literally fix ourselves 
now, leveraging what we call the purposed capabilities.
    Mr. Turner. And those are all good words, but they are 
processes, right, General? You don't have, to be able to put in 
front of us, the answer of what you are going to do instead of 
this. You have--what you are putting before us and the answer 
to Mr. LoBiondo's question is a process.
    General Crawford. We have capabilities, sir, that we have 
outlined. It has to be protected. It has to be expeditionary. 
It has to be more intuitive. So those----
    Mr. Turner. Thank you, General, I am going to move on--Mr. 
LoBiondo? Mr. Langevin, sir.
    Mr. Langevin. You are in the ballpark, Chairman. Thank you, 
Mr. Chairman.
    And I want to thank our witnesses for the testimony. I have 
got to tell you, this is just a stunning hearing and turn of 
events. I mean, I have got to go home and now explain this to 
constituents back home, and it just falls into the category of, 
you have got to be kidding me.
    I mean, this is exactly the type of thing that people back 
home get so worked up about when precious taxpayer dollars, 
apparently, are squandered, wasted, not applied and used in a 
judicious and effective way.
    So I am just going to--again, build on Mr. LoBiondo's 
questions. So, again, the last several years the Army has 
followed a fairly defined trajectory when it comes to our 
communication network and modernization efforts. Now that 
trajectory appears to have been upended in the middle of 
deliberations for the coming fiscal year, leaving policymakers, 
I guess, certainly in the lurch. I fear that the Army keeps 
abandoning good networks and systems in search for the perfect 
system, and the perfect, as we know, is hard to find, if not 
impossible, in the telecom world.
    So, again, to the point, would it not be more practical to 
field the operational WIN-T Increment 2 network while 
continuing the R&D [research and development] efforts to 
improve it? And what alternatives does the Army have today to 
meet the requirement for on-the-move mission command?
    General Crawford. Sir, the alternative system for on-the-
move mission command--between now and fiscal year 2022, we have 
a system called Joint Battle Command, JBCP, Platform. It is 
actually one of the preferred at the maneuver level--systems in 
our formations for on-the-move mission command.
    Between now--in terms of the alternative--between now and 
FY 2022, it is our intent to leverage the resources that we are 
asking for to pure-fleet the Army--because we are not pure-
fleeted with that capability between now and fiscal year 2022.
    So, to your question, sir, the alternative solution for on-
the-move mission command while we are leveraging the purpose 
capabilities of WIN-T to kind of help fix our fight tonight 
capability, it is actually Joint Battle Command-Platform that 
gives an on-the-move capability and our intent is to field the 
entire Army Active Guard and Reserve out to FY 2022, sir.
    Mr. Langevin. So, you stated in your testimony that the 
Army seeks to reinvest the savings from realigned dollars in 
order to improve survivability of electromagnetic warfare and--
I am sorry--electronic warfare and cyber capabilities. The 
mobility of command posts, joint and coalition 
interoperability, a simplified network, and resolved 
incompatibilities in order to fight tonight.
    So, because of the operational landscape changes so 
frequently with the advent of new technologies and emerging 
capabilities, how are you ensuring that the Army is not chasing 
a moving target when it comes to network modernization and is 
balancing this future state network with current on-the-ground, 
on-the-move requirements we are facing right now?
    General Crawford. Sir, in terms of chasing a future state--
and if I got that wrong, please correct me, sir--that is the 
thing that we are trying not to do is chase a future state. But 
what we have not done well in the past is, we have not done a 
good job of describing the future state. And so, as we have 
dealt with our industry partners in terms of being able to 
leverage the technological advances, what we have done is, sir, 
we have limited ourselves.
    We have said I want a radio and I want it to have these two 
waveforms, and I want it to have these two waveforms only. 
Then, when new technologies come along, instead of being able 
to integrate a new waveform, we have had to get a new radio.
    And so, those are some of the things that we are trying to 
put in place to say listen we like to describe the future state 
per requests that we have got from industry. We are not going 
to overprescribe in terms of our requirements and allow them to 
build us to an objective state so that when technology comes 
along we are not coming back to you to ask you to literally 
allow us to buy new radios.
    And so that is just one of the things that we are putting 
in place, and I believe General Mingus may have a comment on 
that, sir.
    General Mingus. Yes, sir. And as we have described that 
future state to both the acquisition community and to our 
industry partners, it has to start with the ability to provide 
command and control and mission command from home station en-
route to an operation, once you have arrived at an operation, 
and then in several types of environments once you get there.
    And as you treat it as a system of systems from the network 
to the physical infrastructure of our command posts, all that 
has to be integrated, and those are the things that we have 
kind of described to our industry partners and our acquisition 
community in terms of where we are trying to go with this 
future state.
    Mr. Langevin. It is stunning that we are so far into this--
we spent so much money and we are still nowhere, it seems. I 
yield back. Thank you.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    I get some of the issues. I get that we are fighting 
yesterday's war. We have been at war for 16 years in a so-so 
environment or something different than the high-intensity 
conflict which is near-peer or peer, going back old school 
doctrine. But we have to plan better for this stuff.
    And so my question is, it sounds like we are trading 
acquisition funds for research and development funds because we 
don't have a system--and I get the processes and I agree 
wholeheartedly that having operated with all these systems--
they are too heavy, they take too long to set up, they are not 
dependable or defensible--I get all those things, but that is 
not a new problem.
    And then who is left hanging without equipment unable to 
communicate? Is that the Guard and Reserve who aren't able to 
communicate with their Active Duty counterparts if they are 
called to war in the same environment? So who is left hanging 
without the products to communicate now? Because we can't stop 
in the military--it is constant motion. So we can't pause or 
take a time-out. We have got to be prepared to fight that war 
today with what we have got, whether we need better or not.
    So, I guess, going back to the chairman's point, my 
suggestion would be is to either ask for part of this money to 
do R&D as opposed to acquisition, but not all, to continue 
equipping guys with what we have until we get something new, or 
to wait until 2017 and say this is the product we have. It 
makes us more maneuverable, more defensible, it is easier and 
all those things.
    So, why are we doing this now instead of waiting until 2017 
and why are we trying to shift away from acquisition to 
research and development? And either one of you all two 
generals can answer that.
    General Crawford. So sir, to your--I will address the part 
about who is left hanging if I may, sir. So, the answer to that 
is the Guard and Reserve will not be left hanging in any way, 
form, or fashion. As we are baselining on a common 
infrastructure and a common set of standards on Increment 1 of 
WIN-T, the Guard and the Reserve is going to have the same 
exact equipment as every heavy brigade combat team in the 
United States Army.
    The second thing that we are looking to do is, I mentioned 
that one of the on-the-move tools of choice is JBCP, Joint 
Battle Command-Platform. I mentioned that we are going to pure 
fleet the entire Army and our requests--our intent would be to 
pure fleet the entire Army with these resources between now and 
FY 2022. So the Guard and Reserve would not be left hanging, 
sir.
    They are going to have the same exact equipment that every 
heavy brigade combat team is going to have. The only units that 
will have any different equipment--and it is backwards and 
forwards compatible that the light units, and it will be 
different from the way we are configured now because it is--we 
had the discussion about WIN-T, the light units actually had 
the heavy equipment. And so we are going to take the heavy 
equipment and put it with the Stryker Brigades and we are going 
to--part of this investment that we are looking for is to get 
lighter versions.
    And I talk about purposed capabilities that fix their fight 
tonight capability--lighter versions of WIN-T, and actually 
outfit our light units with light equipment. And I will let Mr. 
Martin comment if he wanted to talk about the research and 
development piece here, but no one will be left hanging, sir.
    Mr. Kelly. Yeah, I--let me--I've got one more question. I 
mean--and this is why it is important to know what we are going 
to--you have got to have the R&D part. The shot--the shot-out-
to-splash, or the flash-to-bang, that is important, and so it 
is a big, big deal, especially when you start talking about--we 
call them knuckledraggers like us dumb engineers who are not 
smart enough. We are cavemen, you know? We still use a chisel 
and stone, but to train to do the new equipment fielding, the 
nets, to--just the flat-out installation of that equipment 
across the Army to include the Guard and Reserve Components, 
that is difficult.
    So again, I get back to--we have got to have a process and 
we have got to know all those answers. How long does it take to 
get from the capability that we have now to the capability we 
are seeking? And that is a long time and so--again, I go back 
to, why weren't we talking about this in 2016 in developmental 
stages that we don't know what we have rather than talking 
about in the 2017 NDAA?
    General Crawford. Sir, a part of that--and I will let 
General Mingus and Mr. Martin jump in here--is this urgency-of-
now discussion. You talked about things like being able to 
initialize equipment and get equipment out. So we have got--we 
have been assessing in terms of facts that we have been 
gathering to help inform our thinking.
    One of the feedback mechanisms was from the National 
Training Center [NTC], where we had 16 different NTC rotations 
of various types of units, where on average it took between 40 
and 50 hours just to get the equipment up on the air. Sixteen 
different rotations to the National Training Center of all 
kinds of different units over several years, and it took on 
average between 40 and 50 hours talking about the complexity 
challenge piece of this to get the equipment up on the air.
    And so we have got an urgency-of-now. When you combine the 
complexity problem--and I understand that these may not be new 
challenges, but when you look around the world, we have got 
some new threats that we have got to address that have been 
evolving and leveraging technology in a manner in which we 
couldn't. And as I said in my open statement, just because of 
some of the processes that we have. Now I will let----
    Mr. Kelly. Thank you. No, my time is expired.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    And thank you, Mr. Martin, Lieutenant General Crawford, and 
Major General Mingus for being here. General Crawford and Mr. 
Martin, WIN-T Increment 2 passed operational testing in 2014 
and achieved full-rate production in 2015, and since then, has 
served our soldiers in Iraq and Afghanistan.
    This program has been upgraded since it first entered 
production, such that the Increment 2 systems you would procure 
today are less complex, lighter, more capable than systems you 
bought a couple years ago.
    How does the Army plan to transition soldiers on the ground 
from the old to new network platform? Does the Army have plans 
in place to address any operational disruptions due to this 
transition?
    And, two, General Crawford, it would appear that a 
universal lesson learned from the previous tactical network 
modernization strategy to include previous network integration 
evaluations was the need to simplify tactical communication 
systems so that they would pass the smartphone test, making it 
easy for soldiers to operate with minimal training. How does 
the new modernization strategy pass the smartphone test?
    General Crawford. So, sir, one of the things we are looking 
to take on, if you used your--as you use your smartphone at 
home, one of the things that you do--so you have got Wi-Fi, 
potentially, as a path. And then you have got the broadband 
that is provided by one of the commercial services.
    And so when you send a text to someone, the last thing that 
you are worried about is what cell phone tower you are going to 
be off of, or did this message leave my phone and go via Wi-Fi 
or did this message actually go over one of the services 
provided by one of our commercial vendors?
    And so one of the things and one of the lessons that we 
learned to this idea of a smartphone test, sir, is we are 
looking to integrate and evolve, as a part of the new strategy, 
this idea of a universal transport layer. So just like you do 
at home, you don't worry about what tower you are off of, you 
don't worry about whether your message or your phone call 
actually went over Wi-Fi or whether it actually went over 
services provided externally that are global. You just wanted 
your message to get through.
    And so we want to, first, simplify the touch, look, and 
feel. Back to this--I talked about getting operators and 
developers together, sir, to understand how the user actually 
interfaces with equipment. That is something we haven't done 
very well over the last few years. And it absolutely is a 
lesson learned.
    But the second part beyond the getting operators together 
to ensure we have got the infrastructure that is moved away 
from the operator. The infrastructure needs to sit at the 
enterprise instead of with the operator. And if you go and look 
at our formations now, almost all the infrastructure they need 
to send that same message or something very similar to what you 
would send from home, we actually have to take with us.
    And so we have got to change the touch, look, and feel by 
getting operators and developers together, sir. But we have got 
to create a universal transport later so the operator doesn't 
care which direction the signal actually lapped and what route 
it took to get to the distant end.
    And I will offer General Mingus an opportunity----
    General Mingus. One other point with that, sir, is that in 
the past, when we have written our requirements for most of the 
end-user devices that our soldiers use, where you need that 
simplicity and that intuitiveness, we have written it in such a 
way that it has created the complexity that we have on the 
tactical end.
    So as we look to the future and as we are re-crafting how 
we write those requirements, an example of that would be 
instead of after 3 weeks of training, a soldier will retain 80 
percent of what he was trained. And flip that and say that with 
no training he would be able to pick up a device and execute 80 
percent of the tasks on that device before any training. If he 
needed to do any kind of advance-level stuff, that is where 
that training would occur. And so that is a change in 
methodology on the requirements side. When we help, we will get 
after that smartphone technology.
    Mr. Carbajal. And I guess, just to conclude, do you have 
any contingency plans to address the operational disruptions?
    General Crawford. Sir, based on our intent--and it is 
intent in assuming that there has been no final decision, and 
we acknowledge this upfront. Our intent would be, as we--and I 
used the example about light equipment, actually going to light 
units. That would be the G3 of the Army deciding, just like we 
do with all other operations, who should get what equipment 
first based on where they are in the rotations, so that we take 
a minimalist approach, in terms of the disruption that is 
pushed on to our formation.
    So we are thinking through that. And when I talked about 
who is going to get what equipment and when between now and FY 
2021, we actually took some of that into account in terms of 
who is on a patch chart to rotate to where in what part of 
world, sir.
    Mr. Carbajal. Thank you. I am out of time.
    Thank you, Mr. Chair.
    Mr. Turner. We are going next to Mr. Bacon. But I want to 
give the lineup. It is Bacon, Wittman, Brown, Veasey, and then 
Mr. Cook and others, but at least you know somewhat of the 
order. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman, and thank you gentlemen 
for being here. I served in the Air Force CIO's [chief 
information officer's] office about 12, 13 years ago, and so I 
know the complexity of the work you are doing. How much have we 
spent on the WIN-T so far? What are the sunk costs, as of now?
    Mr. Martin. So far we have spent approximately $6 billion, 
sir.
    Mr. Bacon. Six billion dollars, that is a very painful 
number to hear, unfortunately. Can we afford to start from 
scratch to get the capability that we want? Or how many years 
is this going to take to recover if we start this process over 
with a new system? In other words, what kind of--how many years 
gap are we talking to get this back on the rails?
    Mr. Martin. Sir, I don't believe we will be starting from 
scratch. The WIN-T Increment 1 system that we have fielded 
throughout the Army, the WIN-T Increment 2 that we now have in 
our light formations and Stryker Brigades, we will retain in 
that formation. There are some things we are going to do in the 
near term.
    One, for increasing the ability to operate in contested 
environment, one of our requests for resourcing is for RDT&E 
[research, development, test, and evaluation] to provide an 
enhanced modem capability that gives the SATCOM [satellite 
communication] capabilities some AJ [anti-jam] robustness.
    We also have some capabilities that we were planning to 
field to the signal--expeditionary signal battalions, 
troposcatter equipment modem capability, a new multi-band, 
multi-functional line-of-sight radios at the WIN-T level, that 
we were fielding not to our combat brigades, but to our 
expeditionary signal battalions. We are looking to redistribute 
that capability and put it right inside the formation to 
thicken the network to offload the protection capabilities that 
we are lacking today.
    Mr. Bacon. What is the combat impact if we don't field 
Increment 2 versus fielding the Increment 2 with its 
deficiencies? If you could just give that analysis, I would be 
grateful.
    Mr. Martin. I will defer that to our requirements folks.
    General Mingus. We don't believe any operational impact. 
Because of the baselining of Inc. 1 across the entire Army, and 
then select formations, the Inc. 2 that are programmed for the 
next 2 years, the interoperability across all of the formations 
will still be there.
    In the adapt and buy kind of construct that are part of 
this approach, if you think about WIN-T and its basic 
components, its satellite dishes, its routing switches, its net 
operations and server stacks. And it is WIN-T--that 
architecture is going to be with us for many, many years. But 
we want all of industry to be able to come back in 2 years, 
say, or 3 years and say, we have got a new, small, better, 
faster satellite dish. So we can take advantage of all of it 
that is out there----
    Mr. Bacon. Right.
    General Mingus. Same thing with all the other components. 
So the architecture writ large will stay with us for quite some 
time.
    Mr. Bacon. So if we say that we spent $6 billion, that is 
on Increment 1, as well, right? So in other words, that is not 
lost costs. So how much have we invested that we are going to 
lose if we stop the Increment 2? What kind of money was 
invested?
    General Mingus. I think the answer is the same--is there is 
no lost costs.
    Mr. Bacon. okay.
    General Mingus. Because we will be baselined either at Inc. 
1 or Inc. 2 across the Army. And that will stay as the baseline 
architecture until----
    Mr. Bacon. Okay.
    General Mingus [continuing]. Some of these more innovative 
things come online.
    Mr. Bacon. Okay, thank you very much. I yield the balance 
of my time.
    Mr. Turner. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Martin, I want to follow up on General Bacon's 
question. And in proposing this major shift in network 
strategy, the Army has relied upon some of the congressionally 
mandated findings that were in the Institute of Defense 
Analyses on the network.
    And the report made a number of significant recommendations 
regarding tactical radio programs. However, the report didn't 
say a whole lot about WIN-T or that program specifically. And 
looking at those report findings, can you let me know--let us 
know--what led you to the conclusion that accelerating the 
tactical radio procurement was the right way to go and halting 
the WIN-T program was, based on those findings, the proper 
decision?
    Mr. Martin. One of the capabilities that we have not 
delivered on in the last few years is fielding tactical radio 
capability to our lower formations, specifically battalion and 
below. We have been very prescriptive in the past of what 
capabilities we expected. We prescribed the waveform software 
capability that we were expecting to use, which was limited to 
only a few folks in industry. In fact, we actually provided 
them source code for them to actually port onto the radios.
    What we have found, and particularly as we engage with 
other activities, SOCOM [U.S. Special Operations Command] in 
particular, there are innovative capabilities that have been 
developed in the commercial marketplace that have done a much 
better job than we have at adapting it. And they are far more 
resilient. They significantly reduced the complexity that 
soldiers have in managing the capability and very consistent 
with what the IDA report recommended we do.
    Mr. Wittman. The Army has begun to embrace the non-
developmental item initiative, so essentially, going to off-
the-shelf or commercial technology in that acquisition model, 
where you have the industry invest its own money, develop 
technology, look at how that can be applied to meet the 
warfighter's needs. Can you tell me how you envision utilizing 
this model to support Army network modernization and 
communications conduits, as well as hardware?
    Mr. Martin. Many of the components across the entire 
network are, in fact, commercial offerings that we adopt, 
particularly in the tactical radio community. One of the things 
that we have recently done, we released the request for 
proposals for a two-channel leader radio. Previously, we would 
have very much prescribed the capability wanted at a minimum 
capability and that was the only thing industry had to bid 
with.
    What we did this time is we offered industry the ability to 
propose to us some objective capabilities, some of which we 
identified in terms of things we would like to see, and also 
offered them the ability to bring forward any capability that 
they have developed, or have access to, and offer that above-
baseline capability to the Army. Pretty much what SOCOM does, I 
think they have been very successful along those paths and we 
are looking to implement a very similar approach.
    Mr. Wittman. It just seemed like there is a tremendous 
amount of capability out there----
    Mr. Martin. There is.
    Mr. Wittman. And for the Army to be able to take that off 
the shelf, to be able to operationalize it much more quickly, 
yet also have it upgradable and modular in its components, I 
think is absolutely critical. So to be able to look at that 
model, I think, is key.
    Lieutenant General Crawford, do you have any--or Major 
General Mingus?
    General Mingus. Yes, sir. I was just going to offer that in 
the adapt-to-buy approach, it is getting after that very thing 
that you described, the non-developmental. We in this analysis 
determined that we cannot keep pace with commercial industry 
when it comes to information technology.
    And so, as we identify a gap, we do the market research, we 
find something that is close. We try it. It may work, it may 
not. If it works, then there is an adaptation process so that 
it works in the military environment. And then, if that works, 
then we move forward.
    Mr. Wittman. Very good.
    General Crawford, it is my understanding, based on the 
Army's new strategy and looking at capitalizing, again, on 
industry innovation, looking at technology that is out there, 
and existing special operations and joint solutions that are 
going on wherever possible. So looking at integrating all those 
different ideas, could you elaborate maybe on some of the 
lessons learned from the commercial sector in how you plan to 
utilize this cutting-edge technology and industry innovation as 
you look to not only create the network capability today, but 
what the Army will be looking at in capability in years to 
come?
    As you talked about, technology changes almost on a daily 
basis. And I know from my days of having to carry an 
authentication book with me, as an old RTO [radio transmission 
operator], and authenticate, we have come a long ways from 
there.
    General Crawford. Sir, in terms of lessons learned from 
industry, the biggest one has to be governance. I mentioned 
earlier that it wasn't that we didn't have governance, sir. It 
is that we had multiple governing bodies all attempting to 
oversee the resourcing and strategy of different aspects of the 
network.
    The other thing we have learned from both industry and our 
special operations teammates in the joint community, Special 
Operations Command does buy, try, decide, vice the risk-averse 
mindset that we have had in terms of--instead of taking 
advantage of industries, fail early and often--or fail fast 
kind of mindset, we have taken a very risk-averse mindset in 
terms of adapting to change.
    And so, those are the two, the governance and that it needs 
to be horizontally integrated. And then this buy, try, decide 
kind of mentality, in small increments and spiraling into our 
formations, is the best posture that allows us and the greatest 
lessons we have learned in terms of being able to integrate 
technology and leveraging innovation of industry vice reacting 
to it, sir.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Let me just start by 
saying that--I mean, I think disappointed is just an 
understatement for me. I have been on this committee for 9 
months and senior service component leaders come in to the 
committee with a great deal of confidence and say, we are ready 
to fight tonight, and with a great degree of confidence, lay 
out visions and ideas and plans about what it takes in terms of 
R&D and modernization, so that we will be ready to fight 
tomorrow night, and the night after, and 20 years down the 
road.
    Six billion dollars, that is the number I heard, $544 
million that you came in and requested, and we said, sure, here 
you go, which represents--and maybe my numbers are not 
particularly accurate--more than 3 percent of the Army's 
budget. And you come in and say, we want to halt the program; 
we want to pivot because the confidence that we exuded was a 
little bit misplaced, and we have got new information.
    It is concerning, I can tell you. We have a responsibility 
in Congress to make sure that we appropriate the money that you 
need, and we are wrestling with our responsibility, and we have 
fallen short. But as I've said before, you have a 
responsibility to manage those funds that we appropriate.
    I appreciate what you are doing. I really do. I know it is 
complicated, it is complex. But in the context of billions of 
dollars, we have got to do better.
    So I think my question is maybe a follow-up to Mr. 
LoBiondo's and Mr. Bacon's, and--but I just want to clarify. 
This pivot--are we going to be able to build on existing 
technologies? We spend a lot of time and funding and energy on 
research and development. Are we going to turn the existing 
technologies into something useful? Or when you say ``pivot,'' 
that technology, the equipment and everything that $6 billion 
represents, are we leaving that in the dust?
    General Crawford. Sir, to your comment that we have to do 
better, sir, our promise to you is we will do better. To your 
question about leaving technology, and so absolutely, sir, we 
will not be abandoning technology.
    As we look at the challenges, and I won't go through those 
again. We--you heard me mention those. The resources that we 
are asking for is to fix the problems that we have identified 
so that we can fight tonight or tomorrow. We believe that, 
based on what Mr. Martin said about our line-of-sight 
capability, what he talked about in terms of our overreliance--
and that is what we have become, overly reliant on satellite 
capability--he mentioned the anti-jam type problems that we 
have got.
    We are looking to reinvest these dollars to buy the 
commercial modem that Mr. Martin talked about, which is not the 
end-state fix, because there are some other things that have to 
be done, working with our Air Force teammates in terms of space 
for more protected communications capability.
    But we are going to be leveraging the technology that we 
currently have, sir. We will baseline the entire Army. As I 
said, we are asking to halt in FY 2018, but we will be fielding 
WIN-T out through FY 2021. It will be the baseline on which we 
build for the future.
    What we are asking, sir, is that we be allowed to describe 
an objective state because we know--we believe based on 
feedback that we have got, and we won't go through all the 
different feedbacks--we do not believe this is the objective 
state in its current configuration.
    General Dynamics, the company that makes WIN-T, sir, has 
been since I have been a signal officer for 31 years, they have 
been one of the lead integrators in this space. And I would be 
very surprised if in the future, this company and others who 
have been teammates with us integrating this technology won't 
be involved in this. And----
    Mr. Brown. Let me jump to one other thing.
    General Crawford. Yes, sir.
    Mr. Brown. Let me jump to one other thing, the Manpack 
radio program. And can you confirm that the Army is still 
committed to going forward with the Manpack program?
    Mr. Martin. Yes, sir. We are currently in competition with 
the Manpack. We have two vendors. That is our primary mechanism 
that we are going to provide support for the mobile user 
objective system. The satellite goes operational after the OT 
[operational threshold] in 2019. So that will be our primary 
Manpack and vehicular radio.
    Mr. Brown. All right. Thanks.
    And, Mr. Chairman, let me say in concluding, Mr. Martin is 
a familiar face. We worked together at Aberdeen. Nice to see 
you here today.
    Mr. Martin. Thank you, sir.
    Mr. Turner. Thank you.
    Mr. Cook, and then to Mr. Veasey, Mr. Panetta, and Mr. 
O'Halleran.
    Mr. Cook. Thank you, Mr. Chairman.
    This is tough to hear this committee very, very upset. The 
timing couldn't be worse right now. There are a lot of us that 
are trying to get this budget passed and then we have this 
happen, particularly with the amount of money.
    And, you know, Congressman Kelly talked about his being a--
was a knuckledragger. He was an engineer. He was a rocket 
scientist. I am, you know, infantry; real, real basic some of 
the terms you are talking about. I only have--it is like the 
same language we use around here, you know, with acronyms and 
this and that.
    And I am saying to myself, and no offense, generals and 
everybody else, I want like 20 troops out there, 20 soldiers 
that have worked with this. And I am going to say, what do you 
think of this system? And I have been there going back a long 
while, and they would say, ``Well, it is not worth a crap.'' 
And then I would say, ``Why?''
    Give it to me in grunt terms that even Paul Cook, who is 
not very bright, and I am not in your league at all, nor--I 
will never, you know, get there--but I think that we should 
have been asking those people over and over and over again, 
because I know this is painful for you guys to come in here and 
testify at this critical time and say, oh, by the way, it costs 
this much and this much, and we are not sure if we are going to 
get this, and it is going to be--what, 2026--I don't know the 
dates, I am going to be long dead. I just don't want my 
grandkids being in a convalescent home by the time we get this 
straightened out.
    And the reason I am so angry right now is the same thing 
was happening when I was a second lieutenant, different 
service. It is still the DOD, same country, I think. But here 
we go again, rolling out something like this, and you know, it 
gets down to the field and the troops say, ``This thing is just 
a mess, it doesn't work for the following reasons.''
    So I obviously am venting, upset, and I don't have the 
technical questions, because I am last on the point--second-to-
last. So all the good questions have been used up, by the way, 
and which were one- and two-syllable words. But what I am 
saying is we have got to track that with the people that use 
that. And then it has got to come back, and not at this time.
    Now, I am going to support it--I always support the Army. 
By the way, yeah, I am growling, but General Milley, there is 
no one more convinced of the fact that readiness is the name of 
the game. And my fear is that this is going to affect readiness 
levels of certain units. They are not going to be C1 or 2, or 
C1 or C2. They are going to be C3 or C4. And he has talked 
about that enough.
    So I don't know how you can correct it. I don't think 
that--I obviously don't think this is all industry's fault. I 
think this is--we have got to go back because this is not the 
first time. And I am not going to bore you with systems that 
have been terrible. I only know the Marine Corps ones, boy the 
billions that were spent on some of them. The crap that was put 
out there in the field that didn't work is unpardonable. It is 
one thing for us to be upset, but when some soldiers--when some 
Marine, sailor, airman, whatever--if they die because they 
don't have the best equipment, then that is on us.
    So I would like to make sure that we evaluate that, not 
from--I want to go back to the troop level, soldiers, what have 
you, because usually they will give you the straight scoop. And 
if you ask them the questions with a case of beer, you will 
probably get a straight answer. I don't know where you can do 
that, but you know what I am saying.
    So let's get it fixed, and never violate the--one of my 
main principles, and that is the doctrine of surprises, because 
you surprised me today and it is not good for me and it is not 
good for you.
    Thank you.
    Mr. Turner. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. General Crawford, I 
wanted to ask you if you could describe the improvements to 
WIN-T Increment 2, over the initial Increment 1 that the Army 
or the manufacturer have made?
    General Crawford. Sir, one of the improvements that they 
have made is, there have been some steps taken, over the last 
couple of years, and most recently, in terms of a lighter 
version, two components of WIN-T. So I mentioned one of the 
problems that we had initially is, we gave the initial 
instantiation to WIN-T Increment 2, to light units.
    The only problem with that is, on the back of a very large 
vehicle--so you had situations like in the Pacific, a unit, 
literally, as they were deploying, went out and purchased, on 
their own, some equipment because their heavier version of WIN-
T, it was too big to take with them.
    And so, recently, at the NIE, one of the things that has 
occurred, and this is a good news story--they developed a 
lighter version of two components. It is called a NOSC and a 
TCN, a Tactical Communications Node, and a Network Operations 
Center, that we intend, as a part of this fixing our fight 
tonight problem, when I talked about the purpose capabilities, 
sir, that we believe had value in the future, between now and 
FY 2021 that we would like to field, we would like to field 
these lighter versions of these two components of WIN-T to fix 
our fight tonight capability, and actually give them to our 
light units who can actually use them, vice the heavy equipment 
that they have now.
    And so, of the fixes, and Mr. Martin may have a couple of 
comments to make, but the one that goes to the very front of 
the line has to do with lighter versions of the capabilities, 
so that we can actually give our light formations light 
equipment vice the heavier equipment that slows them down and 
impacts readiness, sir.
    Mr. Martin. If I understood your question, sir, you are 
looking at what are the two differences between Inc. 1 and Inc. 
2. Predominantly, the communications capability are 
interoperable and compatible, but what Inc. 2 does is it 
actually puts that capability onto mobile platforms. It has a 
satellite on the move capability and a directional line-of-
sight capability, so it allows the commander to be mobile, 
rather than at the command post.
    Mr. Veasey. And also I wanted to ask you another question, 
as well. Given the Army's track record on modernization 
programs over the last two decades, including the multiple 
iterations of the network modernization strategy, what can you 
tell us that can help convince us that this is the best course 
of action?
    Mr. Martin. Sir, I have been in and out of this environment 
for most of my career, so I have had a role to play in 
acquisition of components of what we have done. The first thing 
that I would say is, in my experience, 34 years in 
acquisitions, this is the first time that we have taken the 
entirety of this on as a major thrust. And in my 34 years, I 
have not seen a Chief of Staff personally engaged to the degree 
that he has to ensure that the requirements, the acquisition 
across the entire community that we are part of this endeavor.
    Two, I think we have realized--and we should have realized 
this a long time ago--that we have been way too prescriptive in 
trying to tell industry what to deliver as opposed to asking 
industry how to meet the capabilities that we need.
    We still have elements of the Joint Tactical Radio System, 
which were, essentially, capabilities that are no longer 
modern. These are 10-year-old capabilities that we were trying 
to make work in this environment. Those are the things that we 
are trying to halt. The MNVR, the maneuver radio, the core of 
that radio is capability that was developed in the early 2000s.
    It is not applicable. Industry has moved on. And so, we 
have taken a step back, we have taken a hard look at what 
others have done to fix some of these problems to include, as 
the ranking member mentioned earlier, security is a big issue. 
But we have treated security as a one size fits all.
    And so, things like platoon and below, where dismounted 
soldiers can deal with a different level of security and open 
their options to a significantly greater set of tools and 
capabilities is something we are looking at very heavily right 
now. And this is what our SOCOM friends have really brought to 
us.
    Mr. Veasey. Thank you very much. And one more quick 
question, General Crawford. What led you--or what were the 
factors of you conducting the review now?
    General Crawford. Sir, it was realization of the threat. It 
was understanding and developing and understanding over the 
last 24 to 18 months of the second- and third-order effects of 
things like a near-peer adversary who not only has an 
electronic warfare capability, who not only has a cyber 
capability, but what they have been able to do is combine 
electronic warfare, information operations, and cyber and 
leverage that against our forces.
    When you think about some of the SATCOM vulnerabilities 
that we talked about and some of the line-of-sight 
vulnerabilities, you have got a near-peer adversary that is 
developing the ability to disrupt our forces. You combine what 
I just explained, talked about, sir, with information ops, 
cyber and electronic warfare capability, with some of the 
indirect fire capabilities, where our TOCs [tactical operations 
centers] are now needing to move every 30 minutes, every hour, 
you combine all those capabilities, sir, that is a pretty 
significant adversary.
    And so it was actually understanding and developing a 
deeper level of understanding of the threat that really got our 
attention. That, combined with feedback from operational 
commanders with--as I mentioned earlier, sir--symptoms, 
initially, they were symptoms--complexity, training issues, et 
cetera, that were brought to us.
    And then we actually got a study that said, here is what we 
think your root cause issues are. So the urgency-of-now, sir, 
is connected to our deeper level of understanding of what the 
threat is and the need to enable our fight tonight 
capabilities, sir.
    Mr. Turner. Gentlemen, we need to move on.
    Mr. Panetta.
    Mr. Panetta. Mr. Chairman, thank you for this opportunity.
    Gentlemen, Mr. Martin, Generals Crawford and Mingus, thanks 
for being here and obviously thanks for your service. I am a 
new member to the Armed Services. I have only been here a 
month, so I wasn't here back in May when you had your report.
    And so, therefore, I am not necessarily disappointed. I am 
very surprised, though, to hear about this and the developments 
that you have talked about today.
    Most of the questions have been asked and so--you know, I 
am just going to go off the cuff here, and just bear with me. I 
am from the central coast of California. Just north of us is 
Silicon Valley, obviously DIUx is there, but also many of the 
companies in the industry that you talked about, General.
    Clearly, it seems to me, based on this limited information 
that I have received before and during this hearing, is that 
part of the problem is trying to keep up with the technology 
that is constantly thrown at, basically, all of us, and seeing 
that there are better ways to do things. We see it every day as 
civilians, and it is good to know that you are seeing it in the 
military services.
    But what--talk to me about some of the industries, some of 
the companies that you have been or plan to reach out to in 
order to help you keep up with the speed of technology?
    General Crawford. Sir, I know Mr. Martin and General Mingus 
will have some commentary here, and I will try to be short and 
leave time for them. But the satellite industry, a specific 
company--so I mentioned, sir, that we have hosted four industry 
forums to try and help inform our thinking.
    We have taken our problems to industry and said, tell us we 
are wrong. In terms--when I talked about processes, sir, it is 
not just a technology, but we are trying to leverage their 
ideas on how to get to the technology, how to best posture 
ourselves to be able to leverage the exponential growth in 
investments that they are making.
    And so we--these industry forums that I talked about are 
where we took--literally took our problems, and everything you 
heard today, essentially we had a conversation with them. And 
so, without getting into a laundry list of different companies, 
we have gone to virtually every sector of the commercial IT 
technology portion of industry to say help us, help us think 
through this particular problem set.
    And I can tell you that the response has been tremendous in 
terms of helping us fix our problems.
    And I will turn to General Mingus to add a little bit more, 
sir.
    General Mingus. Thank you, sir. Since you mentioned DIUx, I 
will give you a vignette of what we have done recently with 
them. It is not foreign to anybody here that it is a tremendous 
human endeavor to digest the amount of data that is out there.
    And it is no different in a military application and the 
speed in which that data is available. And so it is our belief 
that as we try and--and General Crawford mentioned this in his 
opening statement--how do we get better, faster, smarter than 
the enemy.
    And so as you look at the artificial intelligence, machine 
learning, big data kind of stuff that is coming online, DIUx 
has the greatest feel, inside of our organization in terms of 
who in industry is working this problem.
    And so we recently reached out to them to set up a couple 
of forums framing the problem of how the military is trying to 
solve that problem, allow them to go out to the leaders in that 
industry and bring them together in a forum so we can have a 
dialogue and begin to figure out how to solve this for the 
future.
    Mr. Panetta. Mr. Martin.
    Mr. Martin. If I could add, we will continue to use a large 
portion of the commercial IT technology. I mean, routers and 
switches and those kinds of things are always going to be 
something we use.
    One of the things that is most complicated in our network 
is the services on the backend. So we talk about the iPhone-
like approach to simplifying the network to the user. One of 
the toughest things we have in a tactical space today is we 
have to bring our infrastructure, the people who initialize, 
operate, and maintain the networks, the towers that you--that 
service cell phones today, we bring that structure with us.
    We try to develop and build our own management tools, net 
ops [operations] tools to actually coordinate, manage, and so 
forth. Service providers--Verizon, AT&T--have recently met with 
us and they are looking at how to automate what we currently 
require soldiers to spend an inordinate amount of energy trying 
to manage and execute this network, and to try to automate it 
with software-defined networking technology, and things that 
they have applied onto the enterprise that you and I use every 
day at home.
    Mr. Panetta. Great. Thank you, gentlemen. Thank you, Mr. 
Chairman. I yield back.
    Mr. Turner. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here today, General Crawford, General 
Mingus, and Mr. Martin.
    Like Mr. Panetta, I have a bunch of notes. Most of my 
questions have been either answered to my satisfaction or not. 
But thank you for coming into what you knew was going to be a 
difficult environment, and I appreciate that.
    I don't--my problem is I don't see a plan. I don't know 
where you are really going. I see a concept. I see some ideas. 
But it is concerning to me when I also hear the words 
consistently ``we believe,'' ``I think''--all those types of 
words that were said over and over again today.
    And, General Crawford, you had mentioned earlier about when 
this all started, it was a static environment. We never have a 
static environment anywhere. You plan for the entire breadth, I 
would think, of the environment that we are in and potentially 
going to be in.
    So I--the question was before to convince us that this is 
the right course of action. I don't know that it is. I know I 
am not convinced. I am concerned that this may be the third or 
fourth change the Army has proposed for its network 
modernization program. How do we know you won't just change the 
network strategy again next year and the year after that?
    The changing technology aspect of this process--there is 
really no end line, I don't think. And so we don't know when 
the next deployment of the communications equipment will really 
take place. And so to stop one program and start another one, 
understanding that the base is there, but we don't know 
anything about what the rest of it is going to look like.
    And I understand that, but it is really concerning that we 
have gone down $6 billion-plus, probably, and gotten to this 
level.
    So, General, I want to give you the ability to once more 
try to convince us that this is the right direction. And when 
can you have a real plan to us so that we can identify and 
analyze, that that is the way you are going to go?
    General Crawford. Sir, thank you very much for the 
opportunity to follow up. And so this idea of developing a real 
plan, sir, when we look at when we started, to develop the 
concept, what we owe back to you and to the chairman and to the 
ranking member is the details of an execution plan. What we 
have laid out for you to date, sir, is the recognition that we 
have got a real problem in our formations in our Army today.
    And so one of the things that General Milley has challenged 
us with is you have got to ground yourselves in fact. And so 
the discussion and the points that I made about we believe, 
what we have done is we have actually gone back to pull 
together the facts. What I mentioned about the combat training 
center, sir, that is a real thing that we have been collecting 
data on over the last couple of years.
    And so, to the point, sir--and I appreciate the opportunity 
to follow up to convince you that this is the way ahead, and 
the right way ahead. We have got a near-term fight tonight 
problem that we can't get past and so we have got to fix that, 
sir.
    To the future of it, it is literally being informed and it 
has been informed over the last 90 days by our realization that 
we have got some internal processes that we needed to fix. 
Governance, we think we have put something in place for that. 
Putting an integrator in charge? We have done that; that is 
directed by our former Acting Secretary of the Army.
    So, in terms of the details of this, sir, we owe you the 
actual execution plan for this and we look forward to the 
opportunity, sir, to come back and lay out the execution plan. 
Because I know that is what you want to see--we are talking 
concept for what we are asking for--I understand the risks 
associated with it--but we would owe you an actual execution 
plan in how we plan to accomplish this, sir.
    Mr. O'Halleran. I would appreciate that, General, but I 
also would appreciate the structure in which you made the 
decision to move this in a written form or a more formal form. 
But we all share the same issue here, I mean, to ensure the 
safety of our service people. And I look forward to continuing 
this discussion, but I think that we need much more information 
before we should go down the road of which way to go. Thank 
you.
    Mr. Turner. Thank you.
    General, just a couple of issues I want to clarify. The 
WIN-T 1 and 2--they work, right? I mean we want to make sure 
certain that you have accepted these things, they have been 
delivered to you, they were tested--there was not a failure of 
a test. Your issues that you are raising are those in the IDA 
report, which I have read also that go to the issues of 
vulnerabilities, near-peer flexibility issues, technology. It 
is not an issue that this doesn't work, correct?
    General Crawford. Sir, to the question of does it work, 
based on the requirements that we wrote, it meets the 
requirements.
    Mr. Turner. Great. Next, speaking of those requirements, 
you said they had bigger--I wrote it down as you were saying 
it--meaning that in WIN-T 2, that the mobile vehicle was bigger 
and heavier. Wasn't that a result of the Army's requirements? 
Because you said they now have smaller or lighter--but isn't 
that a result of the Army working with respect to the 
requirements of the ability to withstand a blast, what the 
requirements were of the first WIN-T 2 mobile unit that was 
delivered?
    General Crawford. Sir, a part of it actually had to do with 
the availability of the weapons system platform to actually 
place it on. So that is factual, sir.
    Mr. Turner. So it was the Army's issue of it being bigger 
and heavier and now it is lighter and smaller?
    General Crawford. Sir, that is the entirety of the problem 
set wasn't just about the platform. There have been some 
additional modifications made to the systems that are well 
documented over the last couple of years.
    Mr. Turner. I am aware of that.
    General Crawford. Yes, sir.
    Mr. Turner. I have seen both.
    General Crawford. Yes, sir.
    Mr. Turner. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Thank you for your testimony here today. You have all 
talked about how--registered all your concerns with the WIN-T 
program, essentially its many shortcomings. And yet you have 
also said WIN-T will be the baseline of the future. So in 
essence there is an inherent contradiction and as we are at the 
end of this hearing it is just something I would like to put 
out there.
    So I do believe it is clear the complexity of the challenge 
is real and not so easily fixed. Even after testimony today, I 
still feel that your way forward is half-baked, not fully 
developed, and overly optimistic. My father used to have the 
saying, ``You may not be right, but you are positive.'' And in 
essence, I think you are being very positive, but it is not 
clear that the way forward is actually right.
    So I think there is real risk in abruptly moving to a new 
network strategy, and like Mr. O'Halleran, I think we just have 
to have a much clearer way forward before I know I could 
support the funding changes you are proposing.
    With that, I yield back.
    Mr. Turner. Thank you.
    Gentlemen, when I began this hearing, I said I don't like 
having hearings like this because it is an abrupt change, it is 
months after we were told with firm conviction from the Army in 
what direction you were going and now an undefined, unclear, 
new direction.
    This hearing could have been a positive hearing. It could 
have been a result of the IDA study. It could have been the 
focus that Congress had placed on it, the focus that you are 
placing on it, and what your strategy was going to be going 
forward in 2019 instead of the abrupt--we have asked you for 
one thing now we are going to ask you for another in mere 
months.
    So I can tell you that this is a very skeptical 
subcommittee, and I, too, find that the information you 
provided us today does not justify the abrupt shift. It 
certainly justifies the assessment that we requested and that 
you are looking at what you are going to do in the future.
    In technology, you should always be looking at what you are 
doing in the future. It shouldn't take every 10 years or every 
5 years for you to decide what the future is going to be in 
technology.
    But this has been very disappointing, and I know that just 
every member of this subcommittee has registered that with you. 
So, with that, we will be adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           September 27, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 27, 2017

=======================================================================

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 27, 2017

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 27, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. What alternatives does the Army have today to meet the 
requirement for on-the-move mission command?
    General Crawford. In our tactical formations, the Army currently 
relies on the Nett Warrior program to provide dismounted mission 
command on-the-move capability, the Joint Battle Command-Platform 
program for mounted mission command on-the-move capability, and secure 
voice communications through tactical radios to support dismounted and 
on-the-move elements. The current plan will accelerate fielding of 
Joint Battle Command-Platform, pure fleeting all Army elements no later 
than FY22.
    Mr. Turner. This may be the third or fourth change the Army has 
proposed for its network modernization strategy. How do we know you 
won't just change the network strategy again next year or the year 
after that?
    General Crawford. The Army is not only proposing a new way forward 
for the network, but also proposing a new process whereby it can 
acquire emerging technologies without having to once again change its 
strategy. Recent announcements by the Acting Secretary of the Army and 
the Chief of Staff of the Army have directed policy to drive this 
change. The Army is proactively taking steps to streamline its 
governance requirements through the establishment of an Information 
Technology Oversight Council and the consolidation of requirements 
through one center of excellence. This is the first time in many years 
that network reform policies have been supported by the highest levels 
of the Department of the Army and the Department of Defense and will 
result in not only changes to policy, but also institutional and 
cultural change. The change we are proposing at this time is absolutely 
necessary because the Army requires a network that can adapt to the 
changing character of war and a business practice that leverages the 
speed and innovation already resident within the IT industry. In order 
to avoid having to face this situation again next year or the year 
after that, the Army will pursue a proven industry practice of 
incorporating developmental operations (DEVOPS) that allow the network 
to evolve at the pace of commercial innovation.
    Mr. Turner. Does the Army keep abandoning ``good'' networks systems 
in the search for a ``perfect'' system? ``Perfect'' is hard to find in 
the telecom world, would it not be more practical to field the 
operational ready WIN-T Inc 2 network while continuing the R&D efforts 
to make it a more perfect system.
    General Crawford. The Army acknowledges that there is no such thing 
as a ``perfect'' solution in a complex, dynamic world. Pursuit of 
perfection is not the driver for the Army's decision to change course; 
rather, it is the determination to equip the warfighter with the 
ability to communicate on the battlefield with the goal of fighting and 
winning America's wars. Feedback from the Network Integration 
Evaluation and operational units has indicated that the system is too 
complex in terms of planning, maintenance, training and initialization, 
and the complexity is impeding the mission. The line-of-sight systems 
are not effective in sustaining the network in a Satellite 
communications denied environment. Reports have shown that in its 
current form, WIN-T is not optimized against current EW and Cyber 
threats, nor will it be prepared to meet future more complex ones. The 
Army has taken steps to improve WIN-T simplicity with software and 
hardware enhancements, while also reducing the size, weight and power 
of key components and hardening the system against threats. We will 
continue to cascade these improvements into units that currently have 
WIN-T Inc2, while also fielding out the remaining regular component 
Stryker and Infantry Brigade Combat Teams with WIN-T Inc2 to bring 
these units to a standard baseline. For those aspects of the system 
that cannot be fixed, and for those units where platform integration is 
infeasible, the Army will invest in programs that incorporate the 
flexibility to apply funds to alternative solutions.
    Mr. Turner. The Army's written statement states that the Army wants 
to halt the WIN-T Inc 2 program. However, the Army has also stated that 
they will take some attributes or capabilities from WIN-T Inc 2 and 
integrate it with WIN-T Inc 1b. Please further explain this approach 
and what makes this a ``halt'' instead of a modification or restructure 
to WIN-T Inc 2? Why would you need to realign funding out of the WIN-T 
Inc 2 budget line item to continue to procure these capabilities?
    General Crawford. The urgency of now will not allow Army to wait 
and continue on its current path with WIN-T (fielding WIN-T Inc 2 
through FY32, or accelerate the fielding in order to complete fielding 
in FY26) given the systems' vulnerabilities and existing threats. The 
Army intends to halt procurement of WIN-T Increment (Inc) 2 at the end 
of FY 18 and continue fielding that which we have already purchased 
until complete in FY21 to the Active Component Infantry and Stryker 
Brigade Combat Teams. WIN-T Inc2 will then enter sustainment in FY21. 
We will cascade purposed capability improvements into select 
formations. This means the heavy variants of WIN-T Inc 2 will align 
with our Active Component Stryker Brigades and the light variants will 
be fielded with Infantry Brigades. This will enable the Army to fix 
other portions of the entire network ecosystem required to fight 
tonight. The ``halt'' is associated with halting long-term procurement 
of additional WIN-T Inc2 capability for Armored Brigade Combat Teams 
and Army National Guard units. Armored Brigade Combat Teams and Army 
National Guard units will remain on WIN-T Inc1b and transition to 
sustainment of the Inc1b once fielding is complete. Under the new 
modernization strategy, the Army will leverage a Modernization-in-
Service budget line giving the Army the flexibility to improve its 
tactical network, to include WIN-T and all of the other systems that 
comprise the Army's tactical network.
    Mr. Turner. We all realize the threat environment has changed and 
peer competitors have increasing electronic warfare capability. The 
Army presently has a heavy reliance on satellite communications. I'm 
concerned that soldiers may be limited to communicate in a satellite 
denied environment. The Mid-Tier Vehicular Radio program was originally 
designed to be the Army's line-of-sight alternative to satellites. 
However, this new proposed strategy appears to terminate this program. 
So, what's the alternative to this program, and what actions are you 
taking that will improve soldiers abilities to operate in a satellite 
denied environment?
    General Crawford. The Mid-tier Networking Vehicular Radio (MNVR) 
has not demonstrated itself to be an effective line-of-sight 
alternative to satellites during operational testing at several Network 
Integration Evaluation (NIE) events. Nor does it provide effective air-
ground integration, which is an important aspect of multi-domain 
battle. The Army is looking to leverage the mounted Manpack radio with 
an improved LOS waveform for wideband Line of sight (LOS) communication 
as an interim solution. Longer term solutions to mitigate the threat of 
a satellite denied environment include: (1) a more robust integration 
of upper and lower tiers to obviate the need for an explicit mid-tier 
network, (2) resilient satellite strategies, and (3) the pursuit of 
technologies that reduce the amount of power required with LOS systems. 
The Army intends to redirect MNVR funding to fulfill urgent capability 
gaps that the MNVR radio did not prove sufficient to address, 
including: Air/ground integration, Joint interoperability, and a LOS 
waveform with reliable connectivity at operationally relevant ranges.
    Mr. Turner. It's my understanding the Army has a requirement to 
field approximately 282,000 radios, but to date the Army has procured 
less than 10 percent of your goal. That's not good. First, why is 
taking so long to procure and field these radios. Second, I'm assuming 
you're familiar with some of IDA's recommendations and findings 
regarding tactical radio modernization. What actions are you currently 
taking to accelerate fielding of improved tactical radios and will 
these actions incorporate some of the IDA recommendations?
    General Crawford. Requirements changes, testing requirements and 
changes to basis of issue slowed the procurement and fielding of the 
tactical radio modernization. The Army intends to revise its 
requirements by reducing the heavily prescriptive targeted requirements 
which will allow industry more opportunity to demonstrate the value of 
off-the shelf available solutions, and eliminate barriers to 
procurement. The Army is also considering how it can leverage the 
success of technology acquisition by Special Operations Forces and 
Joint Forces, instead of trying to develop, procure, and then field 
Army-unique solution. Tried and true capabilities exist, particularly 
in the area of tactical radios. Testing reciprocity between acquiring 
Department of Defense organizations is also essential to avoid 
unnecessary re-evaluation of proven technology, reduce test schedule 
and burdens, and expedite acquisition.
    Mr. Turner. How did the Army's review of the tactical network cover 
Signal Modernization programs?
    General Crawford. The Signal Modernization programs turned out to 
be good news for the Army. These capabilities are covered in the 
Transmission Capability Production Document and were reviewed and 
selected to be accelerated to the Brigade Combat Teams/Divisions/CORPs. 
These programs are part of the near term strategy to help offset 
satellite reliance, to improve mobility of the command posts and to 
greatly enhance convergence and coalition interoperability. These 
programs are also part the Army's pivot to bring in commercial 
offerings to mitigate current gaps in both the WIN-T Increment (Inc) 1 
and 2 equipped units.
    Mr. Turner. Please address what impact this decision has on the 
National Guard. How will National Guard brigades be able to communicate 
with their associated Active Component brigades?
    General Crawford. National Guard brigades will have the same exact 
equipment as every Active Component heavy armored brigade combat team. 
General Milley is committed to ensuring Active, Reserve and National 
Guard units are able to effectively communicate and operate with their 
associated Active Component brigade combat team counter parts. The 
National Guard will be equipped with WIN-Inc1b, the Army's baseline 
upper tactical network, which is fully interoperable with WIN-T Inc2. 
All of the associated Active Component units are equipped with one of 
these Increments. At lower echelons, the Army is addressing 
interoperability between units by planning a pure-fleeting of the Joint 
Battle Command-Platform system across the total Army and placing 
mission command information systems on the same software baseline.
    Mr. Turner. You have proposed a collection of new network programs 
that are not defined and don't appear to have formal requirements. For 
instance, the Army's proposal references a new initiative called 
Situational Information Transport? What is the acquisition strategy for 
this new program?
    General Crawford. Our approach going forward is to modernize the 
network architecture with carefully targeted modifications, rather than 
attempting to modernize large, monolithic programs of record. The 
Situational Information Transport funding line is not a new program. It 
is where the Army has aligned procurement dollars to purchase 
capabilities that support the final procurement and fielding of 
purposed components of WIN-T Increment 2 (Inc2) specifically, Tactical 
Command Node-Light and Network Operations Security Center-Light. 
Funding for this effort will be terminated following FY21. Future 
upgrades to the tactical network will be funded through the Tactical 
Network Modernization in Service line.
    Mr. Turner. How is the Army redefining tactical network 
requirements to better reflect the type of tactical network that is 
needed for future conflicts given emerging and current threats?
    General Crawford. The Army's Training and Doctrine Command (TRADOC) 
is synchronizing all tactical network requirements from across all of 
the Centers of Excellence through the Mission Command Center of 
Excellence in order to streamline and focus requirements, align 
resources and enable the acquisition community to procure capabilities 
to meet operational need. The Army is updating capability criteria in 
existing requirements documents so as not to exclude viable options 
from Joint, Special Operations, and Industry. The new capability 
criteria intends to avoid overly prescriptive technical system 
performance requirements and focus on the operational requirements, in 
accordance with IDA recommendations. The four priorities of effort of 
the Army's network modernization plan are designed to provide the 
network needed for future conflicts given emerging and current threats 
include: transport, command post mobility and survivability, mission 
command application suite and Joint/Coalition interoperability. All 
operational requirements are intended to enable formations rather than 
hinder them, allowing more effective mission command in the congested 
and contested environments we envision for multi-domain battle.
    Mr. Turner. When developing these new network requirements, how are 
you considering platform integration challenges with respect to size, 
weight, and power?
    General Crawford. The guiding principle is to provide new 
capabilities at minimum size, weight, power, cooling, and cost. For new 
platforms, the network providers and the platform program managers have 
created a unified design. The Joint Light Tactical Vehicle (JLTV) and 
the Armored Multi-Purposed Vehicle (AMPV) are examples of platforms 
which are being optimized for network system integration. The Army will 
collaborate with the Research & Development (R&D) community on 
universal installation kits. In the case of older vehicles, plans are 
in place to increase the power generation capability to accommodate 
additional systems beyond their original baseline. New networking 
systems and platform upgrade schedules are synchronized and aligned to 
provide upgraded capability as fast as possible to the Soldier. 
Additionally, the Army Science & Technology (S&T) community is working 
across network and platform program offices and industry to assess and 
provide a future common hardware and software environment in which 
radios, computing, storage, and electronic warfare components can exist 
on separate electronic cards within a common chassis. If implemented 
this effort could greatly reduce the size and power requirements of 
network and computer systems onboard combat and tactical vehicles. The 
Army demonstrated a prototype of this environment in an S&T version of 
a Stryker in October 2017 and will continue prototype work to define a 
universal solution to better integrate interoperability at the 
hardware, software, and network layers.
    Mr. Turner. How can we be assured the changes you are recommending 
to the Army's tactical network strategy will allow you to operate in a 
contested environment?
    General Crawford. Based on what we now know of the threat and we 
acknowledge that we cannot assume one hundred percent mitigation, we do 
know that the current path does not address the issues we face but 
induces increased risk. By pivoting from the ACAT 1 Programs of Record 
to a modernization-in-service approach the Army will gain resource 
flexibility to quickly integrate cutting edge technologies into the 
network to rapidly address evolving threats. Cross Functional Teams as 
described in the new modernization strategy outlined by the Chief of 
Staff and Acting Secretary of the Army during AUSA will leverage 
operational lessons learned, Science and Technology, Research and 
Development as well as Industry Research and Development to quickly 
develop, demonstrate and experiment cutting edge technologies to 
counter emerging threats. For example, if a given waveform is no longer 
effective or compromised we can work with our industry partners to 
leverage a new commercial waveform and replace that waveform, instead 
of replacing the entire network.
    Mr. Turner. How will this new tactical network modernization 
strategy change or modify the Army's current acquisition strategy to 
competitively procure advanced networking radios?
    General Crawford. Past radio acquisition efforts have been heavily 
prescriptive in terms of targeted requirements in some cases limiting 
competition and dis-incentivizing industry innovation. The Army is 
moving towards a competitive `best value' approach to procuring radios 
vice specifying detailed technical requirements that may overlook 
industry innovations from consideration. The Army intends to compete 
radio delivery orders to incentivize and on-ramp state of the art 
capabilities as they become mature and available. These competitions 
can be as frequent as annual but frequency will be driven by technology 
and industry conditions. The Army will harness industry innovation and 
adapt/leverage existing solutions wherever possible instead of trying 
to develop, procure, and then field our own unique solutions. Testing 
reciprocity with partner organizations including SOF/Joint and industry 
is essential to avoid unnecessary re-evaluation of proven technology.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. What impact will the Army's request for realignment 
have on the telecommunications defense industrial base? What will the 
immediate and long-term impacts be on the supplier base? What is the 
Army doing to mitigate disruptions that could have lasting impacts on 
our nation's ability to acquire and field next generation 
telecommunications systems that meet the unique requirements of our 
military?
    General Crawford. If the realignments are approved, the Army will 
continue to rely on industry and the telecommunications industrial base 
to innovate and procure new capabilities, sustain previously fielded 
capabilities/investments, make required upgrades, modernize and 
simplify the network, and increase resiliency. The Army has no reason 
to believe the actions we are taking to develop a new path forward for 
the network to meet emerging requirements will negatively impact the 
defense supplier base nor the organic industrial base. In the near 
term, the Army will begin to procure systems in FY18 to immediately 
address operational shortfalls to fight tonight and begin 
experimentation to determine how to best integrate efforts such as 
radio gateways and mobile command posts for adaption into the army 
network to address shortcomings. Concurrently, the Army intends to 
revise our requirements documents as recommended by the Institute of 
Defense Analyses NDAA 2016 study that address operational needs but 
written less prescriptively to industry. The Army will fully embrace 
competition where possible to allow industry to come forward with 
innovative ideas. To mitigate disruptions, we will evaluate industry-
developed solutions while leveraging industry's Research and 
Development efforts for further improvements in the Army network 
simplification that could reduce network complexity, increase 
protection and improve interoperability further. Through the 
establishment of the Tactical Network Modernization in Service funding 
line, the Army will have greater resource flexibility to work with the 
industrial base to more rapidly procure items to upgrade our networks. 
Finally, we will harness the industry innovations that have led to 
working SOF/Joint solutions wherever possible instead of trying to 
develop, procure and then field our own unique solutions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. In April, I sent a letter to GEN Milley along with 177 
other House Members encouraging the production and fielding of WIN-T. 
The House-passed NDAA also included funding for WIN-T, with the then-
recommendation of the Army. Now we understand that GEN Milley would 
zero out WIN-T funding for FY2018. What is the reason for this late 
change of tune, and why are we making massive decisions about these 
critical communications systems on the Congressional version of a ``no-
notice'' timeline?
    General Crawford. The urgency for change is based on the detailed 
and Congressionally-mandated National Defense Authorization Act (NDAA) 
2016 analysis conducted by the Institute of Defense Analyses, along 
with the study conducted internally by the Army that validated those 
findings. These studies identified critical vulnerabilities within the 
tactical network, to include WIN-T. Recent conflicts in Ukraine and 
Syria highlighted how these critical vulnerabilities can be exploited. 
The Army must adapt our Network modernization approach to mitigate 
current and emerging threats and address critical gaps and 
vulnerabilities that the current Network modernization strategy does 
not account for. The Army intends to halt procurement of WIN-T Inc 2 at 
the end of FY 18, and with remaining funds continue to field purposed 
components of the WIN-T Inc 2 program already purchased to the Active 
Infantry and Stryker Brigade Combat Teams through 2021.
    Mr. Gallego. WIN-T Increment 2, the dismounted generation of the 
system, was intended to provide Soldiers with the ability to 
communicate effectively in the field. As early as this spring, the Army 
was, or seemed to be, content with the progress of this program and was 
prepared to expand its fielding. With the reassignment of FY2018 funds 
that GEN Milley now recommends, that assessment has changed. Is he 
suggesting that we have squandered the billions of dollars that we have 
put into the program over the past decade?
    General Crawford. The Army began fielding WIN-T 16 years ago to 
address the challenges the Army faced in Iraq and Afghanistan, and the 
capability gaps of its predecessor, the Mobile Subscriber Equipment 
(MSE) system. The Army has assessed that future conflicts will not be 
the same the conditions encountered in those theaters, and has a 
responsibility to the warfighter and to the American people to do 
everything possible to keep pace with the threat and changes to the way 
we must fight. In this case, meeting the emerging threat has forced the 
Army to come to terms with the urgency of modernizing its tactical 
network. Regarding past investment, funds have not been squandered. The 
WIN-T Inc1 program established the baseline for the high bandwidth 
network supporting battalion and above, and remains the foundation upon 
which future modernization will occur. Furthermore, critical components 
developed within the WIN-T Inc2 program will be inserted into the 
baseline to increase satellite communications on-the-move capability 
for the warfighter.
    Mr. Gallego. Please explain why GEN Milley believes that the 
reassignment of funds should occur after virtually all of the 
Congressional committees that have jurisdiction have already completed 
their normal budgetary business for the year. The proposed timeline 
does not allow Congress to proceed on this decision via regular order, 
so to change course we need an ironclad justification. Can you provide 
one?
    General Crawford. The Army acknowledges that the FY18 submission 
for a realignment of funds is ill-timed but necessary to put the proper 
equipment in the hands of the warfighter as quickly as possible. 
Current tensions around the world have drawn focus on operational 
readiness concerns involving our most pressing Operational Plans. The 
Army's increased self-awareness was bolstered by the findings of the 
Institute of Defense Analyses' congressionally mandated study, which 
identified the alarming state of its tactical network and demanded an 
urgent decision for change. While a realignment of funds in the FY19 
budget submission, would have better lined up with the normal budgetary 
business timeline, the Army could not responsibly wait a full budget 
year to implement critical capabilities improvements, while continuing 
to fund solutions that do not meet the immediate needs of our 
warfighters.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. General Crawford, in the hearing you stated that the 
National Guard and Heavy Brigade Combat Teams would be equipped with 
the same version of WIN-T but active duty, LIGHT Infantry Brigade 
Combat Teams would receive something different.
    However, in Indiana one of our National Guard battalions is paired 
with a light Brigade Combat Team (2 BCT 25 ID) under the Army's 
``Associated Unit'' pilot program.
    How will ``Associated Units'' be equipped to ensure they are able 
to effectively communicate and operate with their light BCT 
counterparts to fully meet General Milley's ``One Army'' philosophy?
    General Crawford. General Milley is committed to ensuring 
associated units are able to effectively communicate and operate with 
their light brigade combat team counter parts, and that is one of the 
very reasons why he has determined that the network challenges must be 
addressed immediately. Currently, the network is extremely complex, and 
that complexity is impeding effective communication between units. The 
changes the Army is planning to make are, among other things, directly 
targeting General Milley's objective to fight as ``One Army.'' The 
Army's upper tactical network is baselined with WIN-T Increment 1b 
which is fully interoperable with WIN-T Inc2. All of the associated 
units are equipped with one of these Increments. At battalion and 
below, the Army is addressing interoperability between units by 
planning a pure-fleeting of the Joint Battle Command-Platform (JBC-P) 
system. JBC-P provides on the move mission command applications, 
situational awareness, chat and other communications features across 
the force and placing mission command information systems on the same 
software baseline.

                                  [all]
</pre></body></html>
